     March 6, 2006




Financial Management

Report on Vendor Pay Disbursement
Cycle, Air Force General Fund:
Contract Formation and Funding
(D-2006-056)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACO                   Administrative Contracting Officer
AB                    Air Base
ACC                   Air Combat Command
AFCAP                 Air Force Contract Augmentation Program
CLIN                  Contract Line Item Number
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
O&M                   Operation and Maintenance
PCIE                  President’s Council on Economy and Efficiency
RDT&E                 Research, Development, Testing, and Evaluation
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                          March 6,2006

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Report on Vendor Pay Disbursement Cycle, Air Force General Fund:
         Contract Formation and Funding (Report No. D-2006-056)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Air Force comments were partially responsive to five recommendations in finding A,
and not responsive to five recommendations in finding A and two recommendations in
finding B. All recommendations remain unresolved. Therefore, we request the
Assistant Secretary of the Air Force (Financial Management and Comptroller) reconsider
his position and provide comments to the final report on finding A, recommendation A. 1.
and finding B, recommendation B. I., and the Assistant Secretary of the Air Force
(Acquisition, Technology, and Logistics) reconsider his position and provide comments
on finding A, recommendation A.2., to the final report by April 20,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Aud.dfs@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin L. Peek at (703) 325-5777 (DSN 221-5777) or Mr. John W. Barklage at
(303) 676-3298 (DSN 926-3298). The team members are listed inside the back cover.
See Appendix D for the report distribution.
                               By direction of the Deputy Inspector General for Auditing:


                                        p           i a. M&
                                     fir Paul J. Granetto. CPA
                                      Assistant 1nspecto; General
                                      Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2006-056                                                        March 6, 2006
   (Project No. D2004-D000FD-0040.000)

        Vendor Pay Disbursement Cycle, Air Force General Fund:
                   Contract Formation and Funding

                                 Executive Summary

Who Should Read This Report and Why? Air Force contracting officers and financial
managers who are responsible for purchasing goods and services should read this report.
This report discusses the need to improve internal control of the formation and funding of
contracts with vendors for goods and services.

Background. Management is responsible for establishing and maintaining internal
control to assure effective and efficient operations, reliable financial reporting, and
compliance with laws and regulations. The Inspector General Act of 1978, as amended,
provides for the independent review of agency programs and operations and for audit to
report on internal controls and compliance with laws and regulations. Such a review of
the vendor pay disbursement cycle spans the acquisition; funding; delivery, receipt, and
acceptance; payment; and recording of the financial transactions in the official
accounting records. This is the first in a series of five reports on internal control of the
Air Force General Fund disbursement cycle. This report identifies the weaknesses in
internal control in the formation and funding of contracts used in the purchase of goods
and services in compliance with laws and regulations.

Results. Internal control was not effective to assure vendors were paid with Air Force
General Fund appropriations in accordance with laws and regulations (finding A, Internal
Control – Contract Funding and Vendor Payment). Specifically, Air Force:

   •   Contracting office personnel, without congressional notice and approval, used
       Operation and Maintenance funds in excess of the $750,000 statutory limit to
       fund minor military construction overseas. As a result, personnel improperly used
       Operation and Maintenance funds in excess of the amounts permitted by law.
   •   Contracting office personnel engaged an outside vendor to provide contract
       services that in actuality were for the procurement of goods, an inherently
       governmental function. Under the Federal Acquisition Regulation, Part 4.101,
       “Administrative Matters,” only contracting officers are authorized to sign
       contracts on behalf of the United States Government. As a result, the contracting
       officer improperly authorized a contractor to incur obligations against the
       Government to procure goods from third party vendors.
   •   Contracting office personnel erroneously re-obligated the unexpended balance of
       expired Operation and Maintenance funds to pay for services performed in
       subsequent periods. As a result, the contracting officer used FY 2002 and
       FY 2003 appropriations that were no longer available to pay for services rendered
       in FY 2003 and FY 2004, respectively.
   •   Contracting officers incrementally funded three Research, Development, Testing,
       and Evaluation contracts in excess of what was necessary to fund the severable
       services in the current contract period. In addition, in one contracting action the

                                              i
        vendor did not begin performance in the fiscal year the funds were obligated, thus
        incurring obligations against services that were not a bona fide need of the period.
        As a result, the contracting officers created unliquidated obligations that were
        eventually used to pay for services in subsequent contract periods, and used funds
        to pay for services that were not available by present statement of law.
    • Contracting officers placed three end-of-year orders for goods and services that
        were not binding agreements as of September 30, 2003. As a result, contracting
        officers obligated FY 2003 funds on contracts that were not valid obligations of
        the period.
    • Contracting officers did not effectively follow up to assure that vendors
        performed three maintenance and repair actions in accordance with the terms of
        the contract and DoD financial management regulations. As a result, contracting
        officers obligated funds to pay for maintenance and repair actions that were not
        properly chargeable to FY 2003.
    • Contracting office personnel did not properly fund “over and above”
        maintenance. As a result, the vendor was improperly paid with funds that were
        not obligated on the contract at the time the services were authorized and was
        later paid with funds that were expired at the time the administrative contracting
        officer approved the work.
In addition, contracting officers executed two contracting actions where the vendors
performed the services prior to execution of the funded orders (finding B, Internal
Control – Unfunded Contracting Actions).
Management Comments and Audit Response. The Deputy Assistant Secretary of the
Air Force, Financial Operations (Financial Management) partially concurred with the
findings, and with one recommendation in finding A and one recommendation in
finding B. The Deputy stated that a review by command and installation personnel had
determined that four of the potential Antideficiency Act violations we identified in the
draft report required preliminary reviews, and he directed the appointment of four
preliminary review officials to determine whether potential Antideficiency Act violations
occurred. We do not agree that only four require review and, based on our review of the
comments and supporting documents, we believe that an additional nine deviations
identified as potential violations of the Antideficiency Act require preliminary reviews
because commands and installations did not thoroughly review the facts in each case.
The Associate Deputy Assistant Secretary of the Air Force (Contracting), Assistant
Secretary (Acquisition), generally concurred with the recommendations in finding A, but
did not respond to the recommendations in finding B. The Associate Deputy partially
concurred with six recommendations and concurred with four recommendations in
finding A, and stated that the recommendations deserve further examination. He will
appoint a team to review the recommendations and provide a report by March 31, 2006,
recommending policy or training requirements that need to be emphasized or written.
While we agree that the recommendations deserve further examination, the comments
were not specific enough to determine what actions will be taken to correct the internal
control weaknesses identified in the report.
We request the Assistant Secretary of the Air Force, Financial Operations (Financial
Management) reconsider his position and review the additional nine deviations for
potential Antideficiency Act violations. We also request the Deputy Assistant Secretary
of the Air Force (Contracting), Assistant Secretary (Acquisition) to reconsider his
position and provide additional comments identifying specific actions to correct internal
control weaknesses. We request all comments to the final report by April 20, 2006. See
the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.


                                             ii
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  2

Findings
     A. Internal Control - Contract Funding and Vendor Payment              3
     B. Internal Control - Unfunded Contracting Actions                    10

Appendixes
     A. Scope and Methodology                                              14
     B. Sample Control Test Deviations and Applicable Criteria
        Minor Military Construction                                        16
        Inherently Governmental Services                                   18
        Contract for Severable Services                                    20
        Severability of Research, Development, Testing, and Evaluation
          Contracts                                                        21
        Binding Agreements                                                 25
        Maintenance and Repair                                             29
        Over and Above Maintenance                                         33
     C. Contracting Actions Selected for Review                            35
     D. Report Distribution                                                38

Management Comments
     Department of the Air Force - Associate Deputy Assistant Secretary    41
        (Contracting) and Assistant Secretary (Acquisition)
     Department of the Air Force – Deputy Assistant Secretary, Financial   43
        Operations (Financial Management)
Background
          Management is responsible for establishing and maintaining internal control to
          assure effective and efficient operations, reliable financial reporting, and
          compliance with laws and regulations. The Inspector General Act of 1978, as
          amended, provides for the independent review of agency programs and operations
          and for audit to report on internal controls and compliance with laws and
          regulations. Such a review of the vendor pay disbursement cycle spans the
          acquisition; funding; delivery, receipt, and acceptance; payment; and recording of
          the financial transactions in the official accounting records.

          Three types of internal controls exist: compliance, operations, and financial
          reporting. In this audit, we conducted a series of control sample tests related to
          the three types of internal controls as presented in the Government Accountability
          Office (GAO) and President’s Council on Integrity and Efficiency (PCIE)
          Financial Audit Manual. In accordance with the GAO/PCIE guidelines, 1 we
          randomly selected 45 contracting actions for a comprehensive examination of:

               •   the nature and funding of the contracts;

               •   delivery, receipt, and acceptance;

               •   payment; and

               •   financial recording of the related budgetary and proprietary transactions in
                   the official accounting records.

          In a sample of 45 items, one defect indicates a high risk that the relevant internal
          control is not effective. Depending on the type and nature of the internal control
          deviation, the internal control defect might be significant as a separate finding or
          treated as a homogeneous group of like errors and related causes.

          This is the first in a series of five audit reports on the effectiveness of internal
          control related to the Air Force General Fund vendor pay disbursement cycle.
          This report examines the effectiveness of compliance controls in the formation
          and funding of contracts. While the 13 deviations identified in this report
          (finding A) are significant as separate findings, one deviation in an attribute test
          of 45 items is sufficient to conclude that the risk is high that internal control is not
          effective.

          The second through fourth reports in this series (currently in various stages of
          draft) cover the system of internal control related to Air Force financial
          management, Defense Finance and Accounting Service (DFAS) vendor and
          contract pay, and DFAS core financial system reporting. A fifth report, which we
          will issue to summarize the internal control weaknesses, will assist the reader to
          understand how all personnel have a role in strengthening the financial
          management and reporting process.

1
    GAO/PCIE Financial Audit Manual, section 400, figure 450.1, “Sample Sizes and Acceptable Numbers
    of Deviations,” July 2001.



                                                   1
Objectives
    Our overall audit objective was to assess internal controls and compliance with
    laws and regulations pertaining to the vendor pay disbursement cycle in the Air
    Force General Fund and supported activities. See Appendix A for a discussion on
    the scope and methodology; Appendix B for a detailed description of the
    deviations identified in this assessment; and Appendix C for a complete list of the
    45 contracting actions randomly selected for examination.




                                         2
                    A. Internal Control - Contract Funding
                    and Vendor Payment
                    Internal control was not effective to assure vendors were paid with Air
                    Force General Fund appropriations in accordance with laws and
                    regulations. Specifically, in 13 of the 45 contracting actions examined,
                    either vendors were paid with appropriations that were not permitted by
                    law, or the goods and services received were not a bona fide need of the
                    period the funds were available for obligation. We attributed the
                    deviations to internal control weaknesses in contract formation 2 and a lack
                    of followup when vendors did not perform in accordance with the contract
                    terms. As a result, we believe a material risk exists that a significant
                    number of contracting actions were paid in FY 2004 with funds that were
                    not properly chargeable to the appropriations used.


Sample Control Test Deviations and Applicable Criteria
           As discussed in the background of this report, when more than one deviation in an
           internal control sample of 45 items is noted, the auditor should assess the control
           risk as high that internal control is not effective. We identified 13 deviations
           where contracting officers instructed DFAS personnel to pay vendors with funds
           that were not properly chargeable to the appropriations used, either by statute or
           by regulation. The following deviations were noted:

                •   Air Force personnel used Operation and Maintenance (O&M) funds in
                    excess of the $750,000 statutory limit to fund minor military construction
                    overseas. Contracting personnel did not provide any evidence that the
                    Secretary of the Air Force was provided notice, congressional approval
                    was obtained, or why such notice and approval did not apply to the
                    construction project. We attributed the deviation to the splitting of the
                    construction costs between two separate task orders, each assigned to a
                    different location, to complete a construction project at a third location.
                    These task orders were separately funded at a cost less than $750,000
                    each. As a result, personnel improperly used O&M funds to pay for minor
                    construction in excess of the amounts permitted by law. (See
                    Appendix B.1 for details.)

                •   Air Force contracting office personnel engaged an outside vendor to
                    provide contract services that in actuality were for the procurement of
                    goods, an inherently governmental function. Under the Federal
                    Acquisition Regulation (FAR), Part 4.101, “Administrative Matters,” only
                    contracting officers are authorized to sign contracts on behalf of the
                    United States. Personnel did not provide evidence as to why these

2
    For the purpose of this report, the term “contract formation” applies to such matters as the determination
    of severability and whether a contract or order was binding as defined by 31 U.S.C. 1502. The term also
    incorporates, by reference, any documentation that supported the contracting officer’s determination
    (such as, determination of findings, legal reviews of sufficiency, or other documentary evidence).



                                                        3
                   services were outsourced. As a result, the contracting officer improperly
                   authorized a contractor to incur obligations against the Government for the
                   procurement of goods from third party vendors. (See Appendix B.2 for
                   details.)

               •   Air Force contracting office personnel erroneously re-obligated the
                   unexpended balance of expired O&M appropriations 3 to pay for services
                   performed in subsequent periods. The contracting officer re-obligated the
                   funds because he believed the services were nonseverable, which would
                   have allowed using the funds to pay for the services. As a result, the
                   contracting officer used FY 2002 and FY 2003 appropriations that were no
                   longer available to pay for services rendered in FY 2003 and FY 2004,
                   respectively. (See Appendix B.3 for details.)

               •   Air Force contracting officers improperly modified the funding on three
                   Research, Development, Testing, and Evaluation (RDT&E) contracting
                   actions, resulting in payments for services that were not properly
                   chargeable to the appropriations used. In addition, in one contracting
                   action, performance or a duty to perform did not occur in the fiscal year
                   that funds were available and obligated in order to establish a bona fide
                   need. We attributed the deviations to improper contract formation, where
                   the contracting officers funded the contracts as if the services were
                   nonseverable. One contracting officer stated that all RDT&E contracts
                   were nonseverable. In the contracting action where funds were obligated
                   but unavailable as a bona fide need, we attributed the deviation to a lack
                   of adequate guidance in DoD policy and regulations that clearly states that
                   performance or a duty to perform must begin in the fiscal year the funds
                   are available. As a result, the contracting officers created unliquidated
                   account balances that were eventually used to pay for services in
                   subsequent contract periods, and used funds to pay for services that were
                   not available by present statement of law. 4 (See Appendix B.4 for
                   details.)

               •   Air Force contracting officers placed three end-of-year orders for goods
                   and services that were not binding agreements as of September 30, 2003.
                   We attributed the deviations to the lack of followup when vendors did not
                   perform in accordance with the scheduled delivery dates and contracting
                   personnel made material modifications to those delivery dates after the
                   end of the fiscal year. As a result, FY 2003 appropriated funds improperly
                   paid for goods and services purchased in FY 2004. (See Appendix B.5 for
                   details.)

               •   Air Force contracting officers did not effectively follow up to assure that
                   vendors performed repair and maintenance actions in accordance with the
                   terms of the contract and DoD Financial Management Regulations (FMR).

3
    Air Force, Air Force Reserve, and Air National Guard O&M appropriations were used to fund the
    services rendered on this contract.
4
    On July 8, 2005, DoD General Counsel opined that, under 10 U.S.C. 2410a, performance is required to
    commence in the period the funds are available for obligation. That opinion, although a present
    statement of law, was opined applicable to past actions.



                                                     4
           Specifically, the DoD FMR required either physical on-site evidence of
           performance by January 1 of the calendar year following the execution of
           the contract, or document evidence demonstrating the incurrence of cost
           prior to that date. As a result, the funds used to pay for the actions were
           not properly chargeable to FY 2003. (See Appendix B.6 for details.)

       •   Air Force contracting office personnel did not properly fund “over and
           above” maintenance, that is maintenance costs that were not known until
           the repair was identified and approved by the administrative contracting
           officer (ACO). This occurred because the contracting officer funded the
           over and above maintenance as if it was for severable services that crossed
           fiscal years, rather than obligating the appropriation that was current at the
           time the ACO approved the repair action. As a result, the vendor was paid
           with funds that were either not obligated on the contract or not available
           as a bona fide need at the time the ACO approved the work. (See
           Appendix B.7 for details.)

    Please refer to Appendix B for the specific details related to each deviation, as
    referenced above, and Appendix C for a complete list of the 45-item sample.


Contracting Officer Responses and Related Causes
    Contracting officer responses varied from concurrence to nonconcurrence. When
    at an impasse, we asked the contracting officers to seek their own attorney-
    advisors’ opinions. In some cases, the attorney-advisors opined in favor of audit.
    In others, the attorney-advisors provided a general opinion on the pertinent law or
    regulation, but did not provide a specific opinion on the nature of the contract and
    its funding in connection with those laws and regulations. Therefore, we
    attributed the deviations to improper contract formation and lack of followup
    when vendors did not perform according to the terms of the contracts. For
    example, contracting officers improperly formed and funded contracting actions
    for severable services believing the actions were for nonseverable undertakings.
    However, the actions did not represent a single undertaking or end item. Neither
    the contracting officer nor attorney-advisors offered documentation from the
    contract files to support their claims that the deliverables were for nonseverable
    items. In other instances, contracting officers formed what they believed to be
    binding agreements as of September 30, 2003. However, vendor action after
    September 30, 2003, cast doubt whether a “meeting of the minds” had been
    reached. The contracting officers and attorney-advisors were unresponsive
    regarding two of the questioned agreements. In addition, contracting officers did
    not follow up on FY 2003 end-of-year orders when vendors did not deliver the
    items ordered by the scheduled delivery date or did not start performance in
    accordance with DoD policy.


Conclusion
    Air Force internal controls were not effective to assure that DFAS personnel paid


                                          5
    vendors in accordance with laws and regulations. Although we cannot project the
    total number of actions and related dollar amounts that might have been
    improperly paid, we believe that a significant number of the 15,096 contracting
    actions executed between July 1, 2003, and September 30, 2003, were paid with
    funds that were not available when the goods or services were rendered. To
    improve compliance with laws and regulations, the Air Force needs to determine,
    on a case-by-case basis, whether RDT&E funded contracts are severable, and
    follow up on end-of-year orders to assure binding agreements have been reached
    and vendors perform in accordance with the terms of the contracts.


Management Comments on the Finding and Audit Response
    The Air Force Deputy Assistant Secretary, Financial Operations (Financial
    Management) partially concurred with the finding and recommendations, and
    directed preliminary reviews of four of the potential Antideficiency Act
    violations. He stated that comptroller personnel at commands and installations
    had thoroughly researched each issue and, based on their results and a followup
    review done by the Deputy General Counsel (Fiscal & Administrative Law), he
    directed the four preliminary reviews. After the preliminary reviews are
    completed, the Deputy General Counsel will determine whether formal
    Antideficiency Act investigations are necessary.

    The Air Force Associate Deputy Assistant Secretary (Contracting), Assistant
    Secretary (Acquisition) did not comment on the finding, but stated he believes the
    recommendations in some areas could be valid and deserve further examination.
    He also stated that he will establish a team to review the recommendations and
    write a report by March 31, 2006, recommending policy or training requirements
    that need to be emphasized or written.

    Audit Response. In the finding, we reported that a high risk existed that Air
    Force internal control was not effective to assure compliance with laws and
    regulations in the formation and funding of contracts. The Air Force Deputy
    Assistant Secretary, Financial Operations (Financial Management) did not
    acknowledge the ineffectiveness of internal control and the risk that a material
    internal control weakness existed throughout Air Force contracting. Instead, the
    Air Force Deputy Assistant Secretary focused on whether Air Force personnel
    violated the Antideficiency Act. The 13 deviations identified in this finding were
    the consequence of a lack of effective internal control. The Air Force Associate
    Deputy Assistant Secretary (Contracting) Assistant Secretary (Acquisition)
    comments were only generally responsive in that a team will be established to
    review the recommendations, but he did not provide specific detail on what
    contracting actions the review will cover. Management should positively affirm
    the importance of internal control and make a commitment to ensure compliance
    with appropriation laws in the formation and funding of contracts related to the
    issues represented by all of the deviations and possible violations of the
    Antideficiency Act.




                                         6
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller):

           a. Direct the applicable commands and installations to:

                  (1) Reverse the appropriations used to improperly fund the
    orders for goods and services identified in this report and apply the
    appropriations that were available by law to pay for the goods and services.

            Management Comments. The Air Force Deputy Assistant Secretary,
    Financial Operations (Financial Management) did not comment on the
    recommendation. The Air Force Associate Deputy Assistant Secretary
    (Contracting), Assistant Secretary (Acquisition) partially concurred with the
    recommendation, stating, “We understand appropriations cannot be reversed until
    a determination of the Anti-deficiency Act (ADA) has in fact occurred.” He
    reiterated the results of the Air Force Deputy Assistant Secretary, Financial
    Operations (Financial Management) research that four alleged violations had been
    identified for Antideficiency Act preliminary reviews.
            Audit Response. Management comments are not responsive. The Air
    Force Deputy Assistant Secretary, Financial Operations (Financial Management)
    and the Air Force Associate Deputy Assistant Secretary (Contracting), Assistant
    Secretary (Acquisition) should direct the reversal of the charges against the
    appropriations for all 13 deviations based on a thorough review of the contract
    file and vendor performance and payment documents, and the applicable laws and
    regulations. Based on a review of the supporting documentation from the
    commands and installations, we do not believe they thoroughly reviewed the facts
    in each case. Further, management should not base a charge reversal against an
    improper appropriation solely on whether an Antideficiency Act violation
    occurred. They should direct the reversal if the expenditure violated any
    appropriation law or regulation, and whether personnel violated the
    Antideficiency Act.
                   (2) Conduct an investigation on those appropriations to
    determine whether adequate funds remained available in the period
    available by law to pay for the goods or services. If adequate funds were not
    available, the commands and installations should report violation(s) of the
    Antideficiency Act.

            Management Comments. The Air Force Deputy Assistant Secretary,
    Financial Operations (Financial Management) and Associate Deputy Assistant
    Secretary (Contracting), Assistant Secretary (Acquisition) partially concurred and
    directed four preliminary Antideficiency Act reviews. The preliminary review
    officials are to provide their results to the Air Force Deputy General Counsel
    (Fiscal and Administrative Law), who will then have 90 days to confirm whether
    formal Antideficiency Act investigations are necessary.



                                        7
        Audit Response. Management comments are partially responsive in that
officials will initiate preliminary reviews of four of the deviations in this finding.
However, based on our review of the command and installation comments, eight
additional deviations identified in this finding require an Antideficiency Act
review.

      b. In coordination with the Assistant Secretary of the Air Force
(Acquisition, Technology, and Logistics), establish policy:

              (1) Stating that RDT&E funded contracting actions may be
either severable or nonseverable, and requiring contracting officers to
determine severability on a case-by-case basis.

                (2) Recognizing that performance or a duty to perform must
occur in the fiscal year that funds were available and obligated in order to
establish a bona fide need for services rendered under United States Code,
title 10, section 2410a. The policy should require documentation of work in
the fiscal year that the funds were available and obligated, sufficient to meet
the requirements of the law (31 U.S.C. 1502(a)).

              (3) Requiring contracting officers and fund holders to follow
up on end-of-year orders for goods and services to assure that vendors
execute the orders in accordance with the terms of the contract.

              (4) Including reviews of the internal control related to
contract formation and funding as part of the FY 2006 implementation of the
Office of Management and Budget, Circular A-123, “Management’s
Responsibility for Internal Control,” December 21, 2004.

        Management Comments. The Air Force Deputy Assistant Secretary,
Financial Operations (Financial Management) did not respond to this
recommendation. The Air Force Associate Deputy Assistant Secretary
(Contracting), Assistant Secretary (Acquisition) partially concurred with the
recommendations, and he believes our opinions on severability and
nonseverability, bona fide need, end-of-year funding, and contract formation have
merit. He also believes the contracting officer’s opposing opinion has merit. He
further states his team will review existing regulations, policies, procedures, and
training to see what information is being conveyed to the Administrative
Contracting Officers about followup and tracking contract execution.

        Audit Response. Management comments are partially responsive. We
agree that management should review existing regulations, policies, procedures,
and training to determine what information is being conveyed to contracting
personnel, but we need to know what actions will be taken to address the internal
control weaknesses we have identified in the report.

      c. In coordination with the DoD Comptroller, clarify what constitutes
performance against minor repair and maintenance actions as a bona fide
need.




                                       8
       Management Comments. The Air Force Associate Deputy Assistant
Secretary (Contracting), Assistant Secretary (Acquisition) concurred with the
recommendation, and he will conduct a review relative to performance against
minor repair and maintenance as a bona fide need.

        Audit Response. Management comments are partially responsive. We
agree that management should conduct a review of existing procedures relative to
minor repair and maintenance as a bona fide need. However, we need to know
what actions will be taken to address the internal control weaknesses identified in
the report.

A.2. We recommend that the Assistant Secretary of the Air Force
(Acquisition, Technology, and Logistics):

       a. Direct the applicable commands and installations to require all
contracting office personnel to receive training in appropriations law and its
applicability to contract formation and execution.

        b. Issue guidance on what constitutes inherently governmental
activities and advise personnel to identify other contracting actions where
inherently governmental activities were outsourced.

       c. Coordinate with the Assistant Secretary of the Air Force (Financial
Management and Comptroller) to develop regulations to recognize when
end-of-year contracts or orders risk not being binding agreements (such as,
post award modifications or evidence of counteroffers) or performance
conflicts with DoD policy.

        Management Comments. The Air Force Associate Deputy Assistant
Secretary (Contracting), Assistant Secretary (Acquisition) concurred with the
recommendation and stated that, in coordination with Assistant Secretary of the
Air Force (Financial Management and Comptroller), he will emphasize the need
for training in appropriations law and provide continuous learning in contracting.
In addition, he would emphasize inherently governmental activities and the team
will review regulations, policies, and procedures relative to end-of-year
contracting.

       Audit Response. Management comments are partially responsive. We
need to know what specific actions will be taken to address the internal control
weaknesses we have identified in the report.

We request the Air Force Deputy Assistant Secretary, Financial Operations
(Financial Management) and the Air Force Associate Deputy Assistant Secretary
(Contracting), Assistant Secretary (Acquisition) reconsider their positions and
provide additional comments to the final report by April 20, 2006.




                                     9
                    B. Internal Control - Unfunded
                       Contracting Actions
                    Internal control was not effective to assure that vendors performed
                    services under properly funded orders. Specifically, in 2 of the 45
                    contracting actions examined 5 , vendors performed services before the
                    contracting officers executed the orders. In one instance, Government
                    laboratory personnel directed the vendor to perform services several
                    months before the services were funded and on contract. In the second
                    instance, the contracting officer, by memorandum, improperly authorized
                    the vendor to perform “at risk” prior to formal execution of the funded
                    order. In both cases, the vendors incurred costs that financial managers
                    did not report as unfunded liabilities. As a result, funds may not have
                    been available when the work was directed, and a violation of the
                    Antideficiency Act may have occurred.


Control Sample Test Deviations and Applicable Criteria
           Internal control was not effective to assure that vendors performed services under
           properly funded orders. Further, the costs incurred were not recorded as
           unfunded liabilities, as required by the Statement of Federal Financial Accounting
           Standards, SFFAS No. 1, “Accounting for Selected Assets and Liabilities.” 6

           Sample Number 4. The task order, which the contracting officer executed on
           September 26, 2001, provided funding for five separate projects that the vendor
           performed prior to the execution and funding of the order, 7 thus constituting an
           unfunded liability. The vendor stated that Government personnel from the
           laboratory directed the work. 8 However, according to FAR 1.602-3, an
           unauthorized commitment is an agreement that is not binding because the
           Government representative who made it lacked the authority to enter into the
           agreement on behalf of the Government. In our opinion, the contracting officer’s
           later funding of the projects did not meet the FAR 1.602-3 ratification
           requirements, which as an internal control would discourage personnel from
           entering into unauthorized commitments. As for the recording of the unfunded

5
    Sample number 4, contract F41624-97-D-6004 task order 0032 and sample number 26, contract
    GS35F4668G, order F19628-02-F-8197.
6
    The Statement of Federal Financial Accounting Standards, SFFAS No. 1, “Accounting for Selected
    Assets and Liabilities,” requires the recognition of liabilities as an accounts payable even when budgetary
    resources are not available at the time the vendors incurred the liabilities. The United States Treasury
    reporting requirements for the United States Standard General Ledger require the recording of the
    accounts payable, although no budgetary entries are made.
7
    Unlike the two principal contract line items on the delivery order (0001 and 0003) that required
    performance in the future, the contract action for the five projects provided for “Funding Information
    Only.”
8
    The vendor provided completion dates on two of the projects. The remaining projects, which provided
    for test, set up and preparation, consultation, and equipment operation, were more than likely completed
    prior to the date of the funded order.



                                                       10
           liability, no record existed of the cost incurred prior to September 26, 2003, to
           support an accounting entry. Even then, we were not able to determine if the
           vendor actually invoiced for the cost incurred against the five funded projects
           against the task order. 9 Thus, the Air Force did not record an unfunded liability
           for the value of the services.

           Sample Number 26. The contracting officer executed the task order on
           July 23, 2002, but backdated it to June 1, 2002. The contracting officer had
           issued a memorandum authorizing the vendor to start work at risk on
           June 2, 2002. 10 In the memorandum, the contracting officer advised the vendor
           that any work performed was at risk and the Government assumed no
           responsibility for any cost incurred related to performance until the order was
           issued. If funds were available, the orders should have been executed and funded
           prior to performance. The presence of a contracting warrant does not authorize
           contracting officers to give direction to vendors to proceed at their own risk on
           the assumption that the Government will pay them later.


Circumstances
           Sample Number 4. Air Force personnel did not disclose who, specifically,
           among laboratory personnel directed the vendor to perform the projects prior to
           execution of the funded order or why the work was not funded when directed. In
           addition, personnel did not provide evidence that the projects were subsequently
           funded in accordance with required ratification procedures. The formal process
           of investigation and ratification is an effective internal control to discourage
           personnel from entering into agreements that only contracting officers can legally
           enter into and bind the government to an action.

           Sample Number 26. The Air Force attorney-advisor stated that he did not
           review the memorandum before it was issued but stated that, had he reviewed it,
           he would have advised against issuing it. However, the attorney-advisor stated
           there was once an Air Force Materiel Command Supplement to the FAR,
           Part 5304, that explicitly addressed this issue and permitted such letters. The
           attorney-advisor believed the provision was deleted in 1999 or 2000, but the
           reasoning was still valid. He stated, “There are circumstances when a contractor
           may proceed on risk so long as there is no commitment on the part of the
           government and no obligation of funds.”




9
    The vendor submitted the first invoice against the September 26, 2003, task order on February 7, 2004,
    for services rendered during the period January 1, 2004, through January 31, 2004. The $1,667.68 billed
    was not sufficient to cover the five project costs, valued at $46,226.00. Assuming the vendor completed
    the five projects prior to January 1, 2004, we expected the initial invoice to be for at least $46,226.00. In
    our opinion, the vendor performed the services as stated; however, the actual charges were billed against
    another task order.
10
     Electronic Systems Center, Hanscom Air Force Base, Massachusetts Memorandum, subject “Effective
     Date, “ESC/SR Information Technology Services Program,” June 3, 2002.



                                                        11
Unfunded Liabilities
            Statement of Federal Financial Accounting Standards require liabilities to be
            recognized when goods or services are received, regardless of whether budgetary
            resources are available or whether an obligation was previously recorded.
            Recording unfunded liabilities as an accounts payable provides management
            oversight of the unfunded liabilities. Recognizing unfunded liabilities is a
            financial control that could indicate a potential violation of the Antideficiency
            Act, as well as violations of other relevant statutes and regulations. Moreover,
            vendors should not be performing at risk except as a matter of law. 11 While
            payment cannot be made without a recorded obligation, the absence of an
            obligation should not prohibit recognizing the liability as a matter of record.

            As a result of the potential unauthorized commitment and contracting officer
            direction to start work prior to the execution of the funded delivery order, funds
            may not have been available when the work was directed and a violation of the
            Antideficiency Act may have occurred. For sample number 26, the attorney-
            advisor determined that funds were available and the vendor was subsequently
            paid for the services rendered. However, for sample number 4, Air Force
            personnel did not provide information about the unauthorized commitment or
            whether funds were available at the time the work was performed.


Recommendations, Management Comments, and Audit
  Response
            B.1. We recommend that the Assistant Secretary of the Air Force (Financial
            Management and Comptroller), in coordination with the Assistant Secretary
            of the Air Force (Acquisition, Technology, and Logistics):

                    a. Direct an investigation into the unauthorized commitments
            identified in this report and determine whether the Antideficiency Act was
            violated at the time of performance.

                    Management Comments. The Air Force Deputy Assistant Secretary,
            Financial Operations (Financial Management) partially concurred with the
            recommendation, but did not direct a preliminary review of either deficiency
            identified in this finding. He had directed comptroller personnel at commands
            and installations to thoroughly research each issue and ordered preliminary
            Antideficiency Act reviews based on their results and a followup review done by
            the Deputy General Counsel (Fiscal & Administrative Law). The Air Force
            Assistant Secretary (Acquisition, Technology, and Logistics) did not comment on
            this recommendation.



11
      For example, the U.S. Army Corps of Engineers has the statutory authority for vendors to perform “at
     risk” in advance of an appropriation.



                                                      12
        Audit Response. Management comments are not responsive. We do not
agree that an investigation is not required for these samples. We made the
recommendation in two parts: (1) investigate what appeared to be an
unauthorized commitment, and (2) determine whether personnel violated the
Antideficiency Act at the time of vendor performance. We believe an
investigation is required into both contracting actions, although an Antideficiency
Act preliminary review is not required for sample number 26.

       b. Determine to what extent contracting officers should be directing
contractors to perform at risk and provide guidelines related to such
direction, reviews for legal sufficiency, and the financial reporting
requirements in recognizing the unfunded liabilities.

       Management Comments. The Assistant Secretary of the Air Force
(Financial Management and Comptroller) and Assistant Secretary of the Air
Force (Acquisition, Technology, and Logistics) did not provide comments on the
recommendation.

       Audit Response. Management comments are not responsive.

We request the Assistant Secretary of the Air Force (Financial Management and
Comptroller) and the Assistant Secretary of the Air Force (Acquisition,
Technology, and Logistics) reconsider their positions and provide comments to
the final report by April 20, 2006.




                                    13
Appendix A. Scope and Methodology
           This report is the first in a series of reports examining internal control and
           compliance with laws and regulations of the Air Force General Fund vendor pay
           disbursement cycle. In this report, we discuss the outcome of our tests related to
           execution and funding of 45 contracting actions. The internal control tests were
           performed to determine whether the Air Force general fund appropriations used to
           pay the vendors were obligated in accordance with applicable laws and
           regulations. Our sample of 45 contracting actions was randomly selected from a
           universe of 15,096 items reported during the period July 1, 2003, through
           September 30, 2003. The audit test period extended from October 1, 2003,
           through June 30, 2004. In a control sample test of 45 items, one deviation
           represents a high risk that internal control is not effective.

           In our examination of the 45 contracting actions (which included funding
           modifications A-1 ), we examined the contract file documentation for each sample
           to determine the timing, nature, character, and terms and conditions related to the
           action. We also obtained copies of the funding documents related to the item.
           Based upon the contract data gathered, we traced the delivery of the goods and
           services through receipt and acceptance by the Government, invoice certification
           and payment, and recognition of the related transactions in the budgetary and
           proprietary general ledger accounts in the official accounting records. Where
           potential deviations were identified in the execution of an applicable law or
           regulation, we made inquiries to the Air Force personnel who were involved in
           the contracting action.

           We performed this audit from January 2004 through June 2005 in accordance
           with generally accepted government auditing standards. Our review of the
           transactions related to the deliveries and payments made against the contracting
           actions during the period October 2003 through June 2004, except for those
           actions that were funding modifications. We reconstructed the funding and
           payment histories on all funding modifications back to the inception of the basic
           order.
           Use of Computer-Processed Data. We did not use computer-processed data to
           perform this audit segment.

           Use of Technical Assistance. The Office of Legal Counsel, Office of the
           Inspector General assisted in the review of the legality of the contracting actions
           and funds used to pay vendors identified in this report. In addition, personnel
           from the Quantitative Methods Division, Office of the Inspector General assisted
           in the development of the statistical analysis presented in this report.

           Government Accountability Office High-Risk Area. The Government
           Accountability Office has identified several high-risk areas in DoD. This report
           provides coverage of the Defense Financial Management high-risk area.


A-1
      The FAR does not define a funding modification as a contracting action.



                                                      14
Prior Coverage
    No prior coverage has been conducted on the Air Force General Fund vendor pay
    disbursement cycle during the last 5 years.




                                      15
Appendix B. Sample Control Test Deviations and
            Applicable Criteria

B.1. Assessment Deviation - Minor Military Construction
         Air Force personnel used O&M funds in excess of the $750,000 statutory limit to
         fund minor military construction overseas. Air Force personnel exceeded the
         statutory limit when they obligated over $1.36 million of O&M funds for making
         electrical modifications of 44 billets erected at Al Udeid Air Base (AB), Qatar. In
         September 2003, the contracting officer increased the funding on each of the
         Shaikh Isa AB, Bahrain, and Thumrait AB, Oman, task orders by $680,028 to pay
         for the modifications needed for personnel to use the 16 Shaikh Isa billets and the
         28 Thumrait billets that were moved to Al Udeid. The Air Force did not have any
         evidence that the Secretary of the Air Force was provided notice, congressional
         approval was obtained, or why such notice and approval did not apply to the
         construction project. B-1 When we questioned the use of the Shaikh Isa AB and
         Thumrait AB task orders to fund the work at Al Udeid AB, the contracting officer
         stated the funding of the work was within the scope of those task orders. On
         July 15, 2003, the contracting officer modified the task orders to change the place
         of performance from Shaikh Isa and Thumrait to Al Udeid. The contracting officer
         provided the following rationale:
                   The basic nature of this task was to provide accommodations for Air
                   Force troops. The determination to move those troops was, of course,
                   made by Commanders in theatre. The function of the end item was not
                   changed by the movement; however, that function would have been
                   changed if NOT moved.

           The splitting of the funding of the Al Udeid AB modifications between the task
           orders for Shaikh Isa and Thumrait was misleading. The Air Force Contract
           Augmentation Program (AFCAP) program manager, who requested the O&M
           funds for funding the two task orders, acknowledged that the $750,000 statutory
           limit B-2 applied to the modifications. We believe that Air Force personnel,
           outside of AFCAP, and the contracting officer did not know that the statutory
           limit was at risk and congressional notice and approval was required. Air Combat
           Command (ACC) personnel would not have known because by splitting the funds
           between task orders the individual amounts were less than $750,000 and the
           accounting records were not reliable to capture the specific construction project
           cost to reflect the changed use of O&M funds. As a result, we believe Air Force
           personnel violated section 2805, title 10, United States Code, when they funded
           over $1.36 million for the construction project at Al Udeid AB without providing
           the Secretary of the Air Force notice and obtaining congressional approval.


B-1
      Sample number 17, contract F08637-02-D-6999.
B-2
    The AFCAP program manager acknowledged only that the $750,000 statutory limit applied, not that the
  task orders were split in order to accommodate the spending limit.



                                                     16
Criteria for Funding Minor Construction
         Section 2805 of title 10, United States Code, requires the Secretary of the Air
         Force to notify and obtain approval in advance from the appropriate congressional
         committees for minor construction projects that cost more than $750,000.

         Public Law. Section 1901 of Public Law 208-11, “Emergency Wartime
         Supplemental Appropriations Act of Fiscal Year 2003,” April 16, 2003,
         authorized the transfer of $150 million to carry out construction of military
         projects not otherwise authorized by law. The legislation also changed the
         meaning of military construction under 10 U.S.C. 2801 to include construction in
         a foreign country. This law requires DoD to provide written notice to Congress
         of construction projects and costs that are proposed under the law’s provisions.
         The Air Force did not explain why notice was not required, or, if required, did not
         provide documentation that notice was given.

         Regulatory. Air Force Instruction 65-601, “Budget Guidance and Procedures,”
         volume 1, March 3, 2005, B-3 requires Air Force personnel to submit a request to
         Headquarters, United States Air Force for processing requests to Congress for
         advance approval of minor construction projects that cost over $750 ,000.


Personnel Responses and Related Causes
         On January 26, 2005, the ACC Chief of Budget Integration informed us that ACC
         planned to answer the two questions that we had asked about the applicability of
         Public Law 208-11 to the Al Udeid, Qatar construction. Specifically, we asked
         ACC personnel if the construction at Shaikh Isa AB, Bahrain; Thumrait AB,
         Oman; and Al Udeid AB, Qatar, were projects funded as part of the $150 million
         transfer for construction authorized by Public Law 208-11 and whether the
         $750 ,000 statutory limit under 10 U.S.C 2805 applied to the work. While ACC
         stated that the limit did apply, they have not responded to our question regarding
         Public Law 208-11; therefore, we do no know whether Congress was notified for
         approval. We believe ACC personnel could not support the contract action
         because they did not know the statutory limit was at risk.




B-3
   The March 5, 2005 revision superseded AFI 65-601, volume 1, December 22, 2002. The references
  cited were not changed from the December 22, 2002, criteria for Congressional notice and approval.



                                                  17
B.2. Assessment Deviation - Inherently Governmental
     Functions
           Air Force contracting office personnel engaged an outside contractor to obtain
           contract services that in actuality were for the procurement of goods, an
           inherently governmental function. B-4 FAR, Part 4.101, states that only
           contracting officers are authorized to sign contracts on behalf of the United
           States. Specifically, the contracting officer contracted for contract services by
           creating a contract line item (CLIN) to reimburse a vendor who purchased the
           parts for Air Force detachments. Air Force detachment personnel submitted their
           requisitions to the vendor, who in turn ordered the parts from third parties. The
           vendor was reimbursed on a cost-plus fixed-fee basis.
           In addition, the contracting officer established the CLIN with a period of
           performance that crossed fiscal years, which violated 31 U.S.C. 1502. As a CLIN
           for severable services, the $845,236 in FY 2003 O&M funds obligated in
           FY 2003 was available to pay for severable services that crossed fiscal years as
           codified in 10 U.S.C. 2410a. However, the service rendered was for the
           requisition of parts, which the vendor ordered after Air Force personnel submitted
           their request. Some of the requests were submitted after the end of the fiscal year
           to which the funds applied. The Air Force requisitions were subject to
           31 U.S.C. 1502, which states:
                   The balance of an appropriation or fund limited for obligation to a definite
                   period is available only for payment of expenses properly incurred during the
                   period of availability or to complete contracts properly made within that period
                   of availability and obligated consistent with section 1501 of this title. However,
                   the appropriation or fund is not available for expenditure for a period beyond
                   the period otherwise authorized by law.

           The funding of the CLIN for services should not affect the requirement to comply
           with the bona fide need rule for the purchase of parts. Consequently, the
           requisitions submitted after October 1, 2003, were paid for with funds that were
           not available for obligation under 31 U.S.C. 1502(a). As a result, the vendor was
           paid $114,625 in FY 2003 O&M funds for parts requisitioned in FY 2004.


Criteria for Determining Inherently Governmental Functions
           Procurement Authority, Inherently Governmental Activities. FAR,
           Part 4.101, states, “Only contracting officers shall sign contracts on behalf of the
           United States.” Office of Management and Budget Circular A-76 states that an
           inherently governmental activity involves binding the United States to take an
           action by contract, policy, regulation, authorization, or order. Such actions fall in



B-4
      Sample number 2, contract F33657-00-G-4029.



                                                      18
    one of two categories: (1) the exercise of sovereign government authority or (2)
    the establishment of procedures and processes related to the oversight of
    monetary transactions.

    Bona Fide Need Rule. The DFAS Denver Interim Guidance on Accounting for
    Obligations, November 4, 2004, states:
           One of the basic principles of obligating appropriations is the bona fide
           need rule. Appropriations may be used only for bona fide needs of the
           period of availability. It is possible that a particular obligation is for a
           purpose properly chargeable to a specific appropriation under the law
           but may not be for a bona fide need of the FY in which the funds were
           appropriated. Determination of what constitutes a bona fide need of a
           FY depends largely on the facts and circumstances of the specific case,
           and there is no general rule applicable to all situations.

    Under 31 U.S.C. 1502(a), the balance of an appropriation is only available to pay
    for expenses properly incurred, or to complete contracts that were properly made,
    within the period of availability.


Personnel Responses and Related Causes
    On February 18, 2005, the Chief, Contracting Division Office Reconnaissance
    Wing, Wright-Patterson Air Force Base, Ohio, informed us that an attorney-
    advisor had agreed with the actions taken by the contracting officer. However,
    the chief of the Contracting Division did not provide us a copy of the opinion.
    Consequently, we do not know why the contracting officer contracted for contract
    services to purchase parts or issued a contracting action that provided for using
    expired funds.




                                               19
B.3. Assessment Deviation - Contract for Severable Services
           An Air Force contracting officer erroneously re-obligated the unexpended balance
           of expired O&M appropriations B-5 to pay for services performed in subsequent
           periods. B-6 The contracting officer re-obligated the unexpended balance of
           appropriations because he believed the services were nonseverable, which would
           have allowed using the funds to pay for the services. Upon our request, the
           contracting officer coordinated with financial managers and the attorney-advisor
           and determined the contract was for severable services. The contracting officer
           informed us that he planned to reverse the obligations. The vendor was paid
           $272,000 in FY 2002 and $2.8 million in FY 2003 from Air Force O&M funds
           for services performed in subsequent fiscal years.


Criteria for Determining Severability of Services
           Nonseverable Service. Defense Federal Acquisition Regulation Supplement
           (DFARS), Part 204.7101, states that a nonseverable deliverable is one that is a
           single product or undertaking, entire in nature, that the contracting officer cannot
           feasibly subdivide into discrete elements or phases without losing its identity.

           Funding Contracts for Severable Services. 10 U.S.C. 2410a (2003) states that
           DoD “may enter into a contract for procurement of severable services for a period
           that begins in one fiscal year and ends in the next fiscal year if (without regard to
           any option to extend the period of the contract) the contract period does not
           exceed one year.” In addition, funds available for a fiscal year may be obligated
           for the total amount of a contract that crosses fiscal years.


Personnel Responses and Related Causes
           On August 13, 2004, the contracting officer responded to our inquiry stating that,
           “it is the consensus of all parties in attendance that this contract is, in fact, a
           severable services contract.”




B-5
   Air Force, Air Force Reserve, and Air National Guard O&M appropriations were used to fund the
  services rendered on this contract.
B-6
      Sample number 19, contract F42600-01-D-0027.



                                                     20
B.4. Assessment Deviations - Severability of Research,
     Development, Testing, and Evaluation Contracts
        Air Force contracting officers improperly determined that three Research,
        Development, Testing, and Evaluation (RDT&E) contracting actions B-7 were
        nonseverable. The contract statements of work, and other contract file
        information, did not show evidence that the contracting actions were for
        nonseverable services. In addition, the contracting actions contained specific
        payment instructions that directed disbursing officials to pay vendors using the
        oldest unexpended balance of obligations first, rather than the obligations to
        which the charges applied. In one of the contract delivery orders, the contracting
        officer executed the order in FY 2001, but the vendor did not report services
        commencing until January 2002. As a result, over $511,000 was paid for services
        performed in FY 2004 that were not properly chargeable to the appropriations
        used. In addition, over $11,000 in FY 2001 funds were used to pay for services
        that did not start until January 2002. B-8


Criteria for Determining Severability of RDT&E Tasks
        Severable Services. 10 U.S.C. 2410a (2003) states that a contracting officer may
        enter into a contract to procure severable services for a period that begins in one
        fiscal year and ends in the next year as long as the contract period does not exceed
        one year. The funds made available for the originating fiscal year may be
        obligated to pay the total amount of the contract.

        Comptroller General. In 23 Comp. Gen. 370, 371 (1943), the Comptroller
        General stated:
                 A contract which is viewed as ‘entire’ is chargeable to the fiscal year in
                 which it was made, notwithstanding that performance may have
                 extended into the following year. The determining factor for whether
                 services are severable or entire appears to be whether they represent a
                 single undertaking.

        Government Accountability Office (GAO). GAO Appropriations Law
        Manual, volume 1, chapter 5, explains that contracts are severable when the
        services are continuing and recurring in nature, and the contracting officer should
        charge the services to the fiscal year(s) in which rendered. GAO states that
        research can be severable or nonseverable, depending on the facts. GAO provides
        an example related to cancer research, observing that even though personnel
        viewed the


B-7
   Sample number 4, contract F41624-97-D-6004; sample number 12, contract F29607-97-C-0115; and
  sample number 26, contract 35F-4668G, order F19628-02-F-8197.
B-8
   DoD O&M funds in the amount of $69,200, and working capital funds of $15,000 were also obligated
  on this delivery order.



                                                    21
        research contract as nonseverable, the contract was severable since the actual
        research was for ongoing work with no contemplated required outcome or end
        item.

        DoD Policy. The Defense Federal Acquisition Regulation (DFARS),
        Part 204.7101, defined a nonseverable deliverable as one that is a single product
        or undertaking, entire in nature, that the contracting officer cannot feasibly
        subdivide into discrete elements or phases without losing its identity.

        Present Statement of Law. On July 8, 2005, attorneys representing the DoD
        General Counsel and the DoD IG General Counsel reached an agreement as to the
        application of 10 U.S.C. 2410(a) to the bona fide needs rule. From that
        agreement, which established the criteria for auditors to apply in audits of the
        funding of contracts for severable services that cross fiscal years, the following
        statements were germane to this audit: B-9
                It is a misnomer to categorize 10 USC 2410a simply as “an exception
                to the bona fide need rule,” as this can be misinterpreted as being a
                general exception or waiver of the rule, and lead to bypassing of the
                threshold bona fide needs analysis. Rather, 2410a permits the extension
                of funds available in a current fiscal year into the succeeding fiscal year
                on contracts for severable services originating in the prior fiscal year,
                where a bona fide need for the severable services existed for the prior
                fiscal year at the time of contracting. While the period of performance
                of the services is a significant indicator of bona fide need, it may not
                always be the determining factor. The actual performance of services
                in the earlier fiscal year may not be required, provided the contractual
                duty to perform commences in the earlier fiscal year, which inherently
                includes the contractor’s preparation, mobilization, and deployment
                requirements.

        With regard to performance:

                Where the performance commencement date is specified by the
                contract (to be on contract award or a date after contract award),
                performance must commence in the fiscal year of the funds used and
                may not exceed 12 months. Performance is presumed to be
                performance of services unless the contract specifies required
                mobilization, deployment, etc., prior to performance of actual services.
                Conversely, if a contract were to specify that severable services were
                not to commence until the new fiscal year without a specified
                requirement for mobilization/deployment in the earlier fiscal year (such
                as for a fiscal year option renewal), the bona fide needs rule would
                preclude funding any portion with the prior fiscal year appropriations
                regardless of 2410a.




B-9
   E-mail from Office of General Counsel, DoD IG; subject: DRAFT Review of Final Audit Report: DoD
  Purchases Made Through the GSA, Project No. D2004-D000CF-0238: FOUO; July 13, 2005.



                                                   22
        Moreover,

                 Where the period of performance is not specified, the obligation to
                 perform the services is presumed to commence on the award date, in
                 the earlier fiscal year, and may not exceed 12 months from the award
                 date.

        Although the agreement was reached on July 8, 2005, DoD General Counsel
        presented the quoted interpretation of 10 U.S.C. 2410(a) as that which applied to
        contracts entered into under the statute during the time period covered by this
        audit.

        Air Force Policy. Air Force Instruction 65-601, “Budget Guidance and
        Procedures,” volume 1, March 3, 2005, differentiated between funding Research
        and Development multi-year contracts that provided for requirements beyond one
        year and those that provided only for the requirements of the current fiscal year.
        Although the words “nonseverable” and “severable” were not used, we concluded
        that the reference to multi-year contracts that provided for requirements beyond a
        year meant “nonseverable,” while the reference to those that provided for
        requirements of the current fiscal year meant “severable.”


Personnel Responses and Related Causes
        The contracting officers did not respond to our conclusion the RDT&E contracts
        were for severable services. They also did not provide any evidence to support
        their claim of nonseverability. With regard to the DoD General Counsel
        July 8, 2005, opinion on when services should commence in accordance with
        10 U.S.C. 2410(a), we believe that DoD policy was unclear on when the services
        were to begin in order to use the prior year funds under the bona fide needs rule.
        Otherwise, in our review of the three contracting actions, we noted the following:

            •    Sample Number 4. The first contracting action provided for the
                 contractor to perform simulations of various life support systems and
                 equipment, and related travel. The contracting officer described the work
                 done under this nonpersonal services B-10 contract as “an array of support
                 for a wide band of technical specialties, and associated support activity,
                 which performance was on a short schedule and with limited funding.”
                 Based on the contracting officer’s description of the services and our own
                 review of the contract statement of work, we believe the contract was for
                 severable services that should have been funded on an annual basis. In
                 addition, the contracting officer, who executed the delivery order on
                 September 26, 2001, improperly funded the order by obligating over
                 $69,000 in FY 2001 DoD O&M funds for services that did not begin until

B-10
   We believe that the services were potentially personal in nature. For example, we noted that contractor
 employees had performed certain tasks that someone other than the contracting officer had directed prior
 to the execution of the order that funded payment.



                                                   23
                  January 2002, which did not constitute a bona fide need under the present
                  statement of law. As a result, over $273,000 was paid for services

                  that were not applicable to the appropriation used, which included the
                  $69,000 in DoD FY 2001 O&M (if the funds were not used to pay for the
                  intended purpose. B-11 )

             •    Sample Number 12. The second contracting action provided for
                  nonpersonal services in performing technical and engineering analyses,
                  experimental test plans, operations evaluation, and interactions with other
                  service and governmental agencies, which the contracting officer funded
                  on a level-of-effort basis. The contracting officer established separate line
                  items for travel and material. On February 23, 2005, the contracting
                  officer restated her belief that the contract was nonseverable and that the
                  “full benefit to the lab is only obtained when all these efforts are
                  considered as a combined whole and the end result would be a final
                  scientific and technical report.” She implied that because the basic line
                  item was nonseverable, the travel and material costs were nonseverable.
                  However, we believe the vendor’s issuance of a technical report would not
                  prove the vendor was engaged in a single undertaking or production of an
                  end item. In fact, the contract scope of the technical and engineering
                  analyses, experiments, operations evaluation, and interactions spanned
                  several subject matter areas B-12 as opposed to one single undertaking.
                  Consequently, we believe the contract was for severable services that
                  personnel should have funded on an annual basis. As a result, over
                  $138,000 was paid for services that were not applicable to the
                  appropriations used.

             •    Sample Number 26. The third contract was an order placed against a
                  General Services Administration, General Purpose Commercial
                  Information Technology Equipment, Software, and Services contract. The
                  major deliverables stated on the contract were for nonpersonal services,
                  labor, and travel. Although contracting office and financial management
                  personnel agreed the O&M funded line items were severable, counsel for
                  the contracting officer maintained the RDT&E funded line items were
                  nonseverable. Counsel asserted that “even though some of the services
                  may be severable in and of themselves, they all directly support RDT&E
                  efforts which are not severable.” However, the contracting officer did not
                  provide evidence the service provided was itself a single undertaking. We
                  believe the contract action was for severable services that should have
                  been funded on an annual basis. As a result, over $180,000 was paid for
                  services that were applicable to the appropriations used.

B-11
    As noted in finding B, we were unable to trace the vendor’s billings for the five projects to payments
  made against the funded task order. We must believe the vendor performed as stated. However, since we
  were unable to identify where the funds added to pay for those five projects were invoiced and paid
  against the task order, we could only conclude the $69,000 was diverted to pay for other services. As a
  result, the $69,000 in funds used to pay for services rendered after January 2002 would have violated the
  bona fide needs rule under the present statement of law.
B-12
   Lidar and passive chemical systems, gas and solid lasers, passive and active imaging systems, and
 satellite vulnerability and modeling.



                                                    24
B.5. Assessment Deviations - Binding Agreements
       Air Force contracting officers placed three end-of-year orders for goods and
       services that were not binding agreements as of September 30, 2003. B-13
       Contracting personnel did not know the agreements were not binding because
       they did not:

           •   follow up with vendors when they did not perform in accordance with the
               contract terms; and

           •   seek legal counsel on the impact of their modifications made to the orders
               after September 30, 2003.

       Personnel agreed that one of the orders was not binding as of September 30, 2003,
       and the contracting officer subsequently modified the order to obligate $206,530
       in FY 2004 O&M funds to pay the vendor. However, Air Force personnel
       disagreed with our assessment of the other two orders, stating that a bona fide
       need existed in FY 2003. Their comments did not state whether the orders were
       binding agreements as defined in 31 U.S.C. 1501. They provided no evidence to
       support their claim that the orders were legally binding with supporting
       documents as of September 30, 2003. The contracting officers obligated over
       $590,000 in FY 2003 O&M appropriations that were not valid obligations of that
       period.


Criteria for Recording Binding Agreements
       Binding Agreement. Section 1501 of title 31, United States Code, states that an
       amount must be recorded as an obligation of the United States only when it is
       supported by documentary evidence of a binding agreement between an agency
       and another person. GAO Appropriations Law Manual, volume 1, chapter 7,
       states that a binding agreement consists of an offer, acceptance, and
       consideration, and is made by a contracting officer. Chapter 7 also states,
               Each contract must have incorporated the terms and conditions of the
               respective bid without qualification. Otherwise, it must be viewed as a
               counteroffer and there would be no binding agreement until accepted
               by the contractor.

       Regarding the obligation of available balances, 31 U.S.C. 1502 (2003) states,
               The balance of an appropriation or fund limited for obligation to a
               definite period is available only for payment of expenses properly
               incurred during the period of availability and obligated consistent with



B-13
   Sample number 35, contract GS-06F-0007J, order F61521-03-F-A494; sample number 23, contract
 F64133-03-P-0242; and sample number 57, contract GS-07F-6337, order FA2550-03-F-A122.



                                                 25
                   section 1501 of this title. However, the appropriation or fund is not
                   available for expenditure for a period beyond the period otherwise
                   authorized by law.

           Excusable Delays. FAR 52.249-14, “Excusable Delays,” states the contractor is
           liable for default unless nonperformance is caused by an occurrence beyond the
           reasonable control of the contractor and without its fault or negligence. Causes
           include acts of God or public enemy, acts of the Government in its sovereign or
           contractual capacity, fires, floods, epidemics, quarantine restrictions, strikes,
           unusually severe weather, and delays of common carriers.


Personnel Responses and Related Causes
           Air Force personnel from one base B-14 agreed that the FY 2003 end-of-year order
           was not binding, and the contracting officer subsequently modified the order to
           charge the $206,530 cost of equipment against the FY 2004 O&M appropriation.
           The contracting officer modified the funding because the vendor had not
           delivered the equipment in late October 2003, as specified in the September 30,
           2003, order and there was not a meeting of the minds among all parties regarding
           the equipment specifications. However, Air Force personnel did not agree with
           our assessment of the other two orders.

               •   Sample Number 23. Air Force personnel disagreed that a
                   September 30, 2003, contract for equipment was not a binding agreement
                   as of that date. They believed a bona fide need existed in FY 2003 and a
                   subsequent modification that the contracting officer made in October 2003
                   corrected an administrative error. Specifically, on September 30, 2003,
                   contracting office personnel issued an order, valued at $89,708, after
                   receiving the vendor’s quotation on the manufacture and delivery of
                   refrigeration equipment. The vendor stated the delivery on two of the
                   ordered items would take sixteen weeks from the receipt of the order.
                   However, the contracting officer wrote the order requiring delivery of all
                   items by November 29, 2003. On October 2, 2003, the company
                   representative received the order and immediately notified the contracting
                   officer that the vendor could not meet those terms. On October 20, 2003,
                   the contracting officer modified the order to reflect the delivery schedule
                   as 16 weeks after receipt of order. Personnel concluded the contracting
                   officer had a meeting of the mind with the vendor on price and
                   performance. The contracting officer only adjusted the delivery
                   schedules.

                   We do not believe that the contracting officer and vendor had a meeting of
                   the minds because the Government did not accept the delivery schedule
                   without qualification. A disagreement on delivery schedule is a material
                   term and condition that requires unconditional acceptance for an
                   agreement to exist. The Government’s order, written with delivery terms
                   other than those quoted, presented a counteroffer, which the vendor
B-14
       Sample number 35.



                                                    26
                   subsequently rejected. The delivery terms were material to the vendor,
                   and the vendor would not have performed without the October 2003
                   modification. As a result, we believe a binding agreement did not exist as
                   of September 30, 2003, and that the $89,708 equipment cost was
                   improperly charged against the FY 2003 O&M appropriation. Contracting
                   personnel should have funded the order from the FY 2004 O&M
                   appropriation.

                   In addition, the vendor provided information on a second order B-15 with an
                   equipment cost of $93,582 that also did not recognize the quoted delivery
                   dates and required later modification before the vendor agreed to perform.
                   As a result, a total of $183,290 in FY 2003 O&M funds was improperly
                   used.

               •   Sample Number 57. Air Force personnel disagreed that a
                   September 26, 2003, order for the purchase and installation of playground
                   equipment was not binding. Personnel believed a bona fide need existed
                   in FY 2003 and provided copies of playground designs prepared in
                   FY 2003 to support that claim. Personnel referred to a design consultant’s
                   e-mail acknowledgement that she received the order on
                   September 27, 2003, as proof that the order was received prior to the end
                   of the fiscal year. Specifically, on September 26, 2003, contracting
                   personnel issued an order for the purchase and installation of playground
                   equipment. The contracting officer e-mailed a copy of that order to the
                   design consultant, an independent contractor, who reviewed the design
                   specifications and forwarded the order to the company that was to
                   purchase and install the equipment by November 19, 2003. There is no
                   evidence that the independent design consultant had any authority to bind
                   the contractor to perform the order. However, on November 17, 2003, the
                   contracting officer extended the period of performance from
                   November 19, 2003, until May 31, 2004, citing FAR 52.249-14,
                   “Excusable Delays,” as authority for the modification. The contracting
                   officer modified the order when advised that the normal temperatures for
                   the region were not conducive for installation. On May 21, 2004, the
                   contracting officer modified the period of performance a second time
                   because of additional delays in completing the project. The vendor
                   completed the work on June 15, 2004.

                   The issue was not whether a bona fide need existed in FY 2003, but
                   whether a binding agreement was in place at the end of FY 2003. We
                   agree a bona fide need existed in FY 2003. If the contract was binding,
                   the vendor was in default. The contracting officer should have either
                   terminated the contract or sought some remedy to protect taxpayer
                   interest. We do not believe the September 27, 2003, order was binding
                   given the contracting officer’s later modification to extend the period of
                   performance instead of either terminating or seeking remuneration. In
                   addition, we believe the contracting officer’s extension of the delivery
                   date, citing FAR 52.249-14 as authority, was improper. Had the vendor

B-15
       Order F64133-03-P-0214.



                                                27
performed by November 19, 2003, as originally called for, the playground
equipment would have been installed prior to the weather becoming an
issue.




                           28
B.6. Assessment Deviations - Maintenance and Repair
       Air Force contracting officers did not effectively follow up to assure that vendors
       performed maintenance and repair actions in accordance with the terms of the
       contract and DoD regulations. B-16

           •   In sample number 11, the contracting officer did not follow up to assure
               the vendor started work or incurred cost by January 1, 2004, to meet the
               bona fide need rule, even though the contracting officer issued the notice
               to proceed on September 30, 2003. Actual on-site work and costs were
               not incurred until February 2004.

           •   In sample number 24, the contracting officer believed the vendor
               performed after the vendor made the material submittal and six trips to
               Okinawa, Japan, prior to January 1, 2004. However, the contracting
               officer did not issue the notice to proceed until June 14, 2004. We
               determined the material submittal and trips related to the basic contract,
               not the task order.

           •   In sample number 27, the contracting officer did not follow up to assure
               the vendor started work or incurred cost by January 1, 2004, to meet the
               bona fide need rule, even though the contracting officer issued the notice
               to proceed on October 10, 2003. The vendor did not start work on-site or
               incur cost until after January 15, 2004.

       In each sample, the circumstances differed slightly as to what was considered
       performance. We attributed the deviations to a lack of clarity in the DoD FMR
       regarding what supported a significant start based on cost and the lack of
       enforcement to the notices to proceed. As a result, we do not believe any of the
       three orders for the repair and maintenance activities were a bona fide need of
       FY 2003.

Criteria for Recording Maintenance and Repair
       DoD FMR, volume 3, chapter 8, provides specific guidelines on whether
       maintenance and repair activities are a bona fide need of the period that the funds
       are available for obligation. DoD policy allows contracting officers to obligate
       current year appropriations for repair and maintenance contracts awarded near the
       end of the year, even though the contractor’s performance may not begin until the
       following fiscal year. However, work must begin before January 1 of the
       following calendar year in order to constitute a bona fide need of the prior fiscal
       year. In the event a contractor defaults, the contracting officer can terminate the
       contract for default, and use the previous appropriation to fund a replacement
       contract.



B-16
   Sample number 11, contract F62321-00-D-0007; sample number 24, contract F62321-03-D-0010; and
 sample number 27, contract F65262-03-C-0049.



                                               29
    Air Force Regulation 170-8, “Comptroller Accounting for Obligations,”
    October 15, 1985. While this regulation is now obsolete, we believe the
    following excerpt remains true today on what constitutes performance:
           Contractor planning and scheduling are not normally considered
           contractor performance except when a design/construction contract
           calls for a specific design, planning, or scheduling performance
           milestones. A performance bond by itself is not evidence of contract
           performance. Ordering of materials, mobilization, or actual work at the
           site are evidence of performance for bona fide need purposes. These
           procedures do not apply to cases where an activity or contracting
           officer is required to place an order or contract with a foreign
           government agency under provisions of a treaty or other international
           agreement.

    FAR 52.249-10 “Default (fixed price construction).” According to
    subparagraph (2) of FAR 52.249.10,
           The contractor, within 10 days from the beginning of any delay (unless
           extended by the Contracting Officer), notifies the Contracting Officer
           in writing of the causes of delay, the contracting officer shall ascertain
           the facts and extent of the delay. If, in the judgment of the Contracting
           Officer, the findings of fact warrant such action, the time for
           completing the work shall be extended.



Personnel Responses and Related Causes
       •   Sample Number 11. On September 16, 2003, the contracting officer
           executed task order 5130, valued at $142,000, for the repair of exterior
           piping. The contracting officer issued the notice to proceed on
           September 30, 2003. The vendor was to perform the work within
           240 calendar days, with performance to start within 5 days of receipt of
           the notice. However, the work did not start until February 3, 2004. The
           vendor completed the repair and maintenance action on June 1, 2004.
           Contracting office personnel did not provide a reason why work did not
           start until February 2004 or evidence of any significant costs incurred
           prior to January 1, 2004. The contract progress reports did not show work
           performed until February 2004.

           The DoD FMR is specific on requiring that work be started or cost
           incurred before January 1 to be able to use prior fiscal year funds for
           maintenance and repair activities. However, the regulation is silent on
           what impact the contracting officer’s failure to enforce the notice would
           have on bona fide need. We believe the regulation implied enforcement
           when stating the contracting officer, through the execution of a
           Termination for Default, could use the FY 2003 funds on a replacement
           contract. Yet the contracting officer did not pursue that course of action.
           Since the DoD FMR is silent related to the issue of enforcement presented
           in this action, we believe that clarification is in order.



                                              30
•   Sample Number 24. The contracting officer believed that bona fide need
    was established when the vendor presented material submittals and made
    six trips to Okinawa, Japan, to negotiate prices with suppliers and
    subcontractors, and to survey storage areas and staff living quarters prior
    to January 1, 2004. Specifically, on September 27, 2003, the contracting
    officer awarded an $83,000 contract to repair an electrical distribution
    system in Okinawa, Japan. The contract terms required the issuance of a
    notice to proceed within 30 days of the execution of each task order. The
    contracting officer did not issue the notice until June 21, 2004, and
    extended the period of performance from 150 to 210 calendar days. In
    this case, the contracting officer stated the material submittal was
    considered performance, and, even though the notice to proceed on the
    task order was not issued until June 2004, the notice to proceed could not
    be issued until the material submittal on the basic contract was done.
    Therefore, the contracting officer believed that the funding of the task
    order using the FY 2003 appropriation was bona fide.

    We do not believe that performance against the basic contract established
    a bona fide need related to the task order, since the notice to proceed on
    the task order was not issued until June 2004. The costs incurred by the
    vendor prior to issuance of the notice to proceed, and the trips made to
    Okinawa, benefited all of the potential task orders issued against the
    contract. We could not assume that such costs established the bona fide
    need for all future task orders using the FY 2003 O&M appropriation as
    the source of funds. However, because the DoD FMR is silent related to
    the issues presented in this action, we believe that clarification is in order.

•   Sample Number 27. On September 19, 2003, the contracting officer
    awarded a $620,000 contract for the replacement of a heating, ventilation,
    and air conditioning system. The vendor was to install the system within
    120 calendar days from the date the contracting officer issued the notice to
    proceed. The contracting officer issued the notice to proceed on
    October 10, 2003. On December 1, 2003, the contracting officer extended
    the period of performance from 120 to 180 calendar days citing
    FAR 52.249-10, “Default (fixed price construction).” According to the
    contracting officer, the extension was made for the convenience of the
    Government because of an Air Force Inspector General, Unit Compliance
    Inspection. On January 15, 2004, the contracting officer reported only
    1 percent of the preparation work was accomplished and provided a copy
    of one invoice paid by the vendor to purchase a pipe, valued at $11,495.
    The vendor completed the job on April 8, 2004.

    The repair and maintenance action did not meet the intent of the DoD
    policy as a bona fide need. The contracting officer’s explanation of what
    work was done by January 1, 2004, which represented 1 percent of the
    preparation phase, did not reflect a significant start. The work done
    consisted of Air Force personnel obtaining and approving the progress
    work schedule, material, and bond submissions. We do not believe one
    invoice paid by the vendor, valued at $11,495 (or .018 of the total contract
    value) in this instance constituted performance. However, because the
    DoD FMR is silent on what measurement applies to cost and on what


                                  31
impact a contracting officer’s failure to enforce a notice to proceed could
have on bona fide need, we believe that clarification is in order.

We also do not believe that FAR 52.249-10 is applicable for extending the
period of performance, based on the contracting officer’s statement. As a
result, the intent of the DoD FMR was apparently not met, and the use of
FAR 52.249-10 did not justify the continued used of the FY 2003 funds to
pay for this maintenance and repair action.




                             32
B.7. Assessment Deviations – “Over and Above” Maintenance
           Contracting office personnel did not properly fund over and above
           maintenance. B-17 This occurred because the primary contracting officer funded
           the over and above maintenance as if the action was for severable services that
           crossed fiscal years. Instead, the funds that were available and obligated at the
           time the administrative contracting officer (ACO) approved the repair action
           should have been used for the repair. We attributed the deviation to the primary
           contracting officer’s misunderstanding of the nature of an over and above
           maintenance action related to its funding. As a result, we identified $111,000 that
           was paid from FY 2003 O&M funds when the only funds obligated on the
           contract at the time the work orders were approved were Working Capital funds.
           In addition, we identified $71,000 paid from FY 2003 O&M funds for work
           orders that were approved after October 1, 2003, which should have been paid
           from the FY 2004 O&M appropriation.


Criteria for Recording Over and Above Maintenance
           Over and Above Maintenance. Contracts for manufacture, installation,
           maintenance, or repair of weapon systems and equipment include a line item for
           what is termed over and above maintenance. Those costs were so-named because
           they were over and above the firm-fixed-price for manufacture, installation,
           maintenance, and repair that Air Force personnel funded by the separate line item.
           Before an over and above cost was incurred, the ACO was required to approve the
           work order. After the ACO approved the work order, and established a not-to-
           exceed amount for the repair, the vendor accepted the order and performed the
           repair. Once the vendor made the repair, the ACO accepted performance and
           authorized payment.

Personnel Response and Related Causes

           After obtaining attorney-advisor counsel, the primary contracting officer
           concurred with our observation that the over and above maintenance was
           improperly funded. The attorney-advisor offered the following about the funding
           of the over and above maintenance.
                   It appears the over and above funds on CLIN 0005 are not obligated
                   until the written direction to proceed is issued. This is because there is
                   no “binding agreement” between the parties to perform the work until
                   that time. (That is part of the definition of obligation in title 31 of the
                   U.S. Code.) Each aircraft’s over and above stands alone as a separate
                   obligation and, because the Government gets no effective value for the
                   over and above work on a particular UH-1 until the work is


B-17
       Sample number 44, contract F09603-02-C-0286.



                                                      33
                    finished, B-18 the work is not severable. In other words, when the
                    amount is agreed upon for over and above work on aircraft 001, the full
                    estimated cost (because it is a T&M effort B-19 ) is obligated without
                    regard to how long the work will take.

           In our sample of 45 contracting actions, one other contracting action for over and
           above maintenance was examined. B-20 In that case, the vendor’s invoices were
           properly paid with the funds that were available at the time the administrative
           contracting officer authorized the repair. In comparing the two contracts, several
           key distinctions were noted. First, the improperly funded contract had aircraft
           procurement, working capital, and Air Force O&M funds obligated on the
           contract for over and above maintenance, regardless of customer, B-21 and the
           funded period of performance crossed fiscal years. The second contract had only
           O&M funds obligated and the funded period of performance ran concurrent with
           the fiscal year. In both contracts, the ACOs had to approve the repair before the
           work was done.

           However, because of multi-funding, timing of the obligations, unliquidated
           balance of those obligations, and obligation of funds as if for services that crossed
           fiscal years, the situation was created where the appropriation available at the
           time a repair was authorized did not attach to the repair itself. As a result, once
           the repair was made and the ACO accepted performance, the vendor was paid
           with the unliquidated balance of the appropriation available at the time of
           payment. However, at the time of payment the funds were either not obligated on
           contract when the ACO first approved the repair or were unavailable to pay for
           the repairs in the fiscal period the ACO approved the repair.

           We agree with the attorney-advisor’s opinion that the repair, once approved, was
           nonseverable and payable from funds available at the time a binding agreement
           was reached. However, since there are many factors related to the funding of
           over and above maintenance throughout the Air Force, B-22 we defer to the Air
           Force to examine the overall business practice related to the funding of over and
           above maintenance.




B-18
       The over and above maintenance on this contract was for the UH-1N Helicopter.
B-19
       Time and materials.
B-20
       Sample number 25, contract F34601-97-C-0032.
B-21
   In the second contract, multiple appropriations existed but funded each customer’s individual
 requirements.
B-22
   In our review of the two contracts, we noted the nature of the aircraft, age and presence of historical
 repair data, and the difference in how the contract line item was funded affected the outcome.



                                                      34
Appendix C. Contracting Actions Selected for
            Review




                       35
36
37
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Networks and Information Integration/Administration
   and Management)
Assistant Secretary of Defense (Health Affairs)
Director, Acquisition Resources and Analysis
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
President, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition, Technology, and Logistics)
Auditor General, Department of the Air Force

Other Defense Organization
Office of the Chairman Joint Chiefs of Staff
Director, Defense Finance and Accounting Service
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
National Security Agency
Defense Systems Management College
Inspector General, US Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          38
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        39
Department of the Air Force Comments




                     41
42
Department of the Air Force Comments




                     43
44
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Byron B. Harbert
Marvin L. Peek
John Barklage
Dave Barbour
Mary Reynolds
Kevin Roths
Michael Nishi
Kelly Olson
David Fahey
Erin Hart
Lusk Penn
James Hartman
Lam Nguyen
